                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                            TABLE OF CONTENTS




                                                                        PAGE

ACRONYMS                                                                          ii

MANAGEMENT DISCUSSION AND ANALYSIS

 Mission and Organizational Structure                                    I    -   1
 Financial Highlights                                                    I    -   1
 Performance Goals and Results                                           I    -   1
 Limitations of the Financial Statements                                 I    -   2

FINANCIAL STATEMENTS

 Balance Sheets                                                         II    -   1
 Statements of Net Cost                                                 II    -   2
 Statements of Changes in Net Position                                  II    -   3
 Statements of Budgetary Resources                                      II    -   4
 Statements of Financing                                                II    -   5

NOTES TO FINANCIAL STATEMENTS

 Note 1 - Summary of Significant Accounting Policies                    III   -   1
 Note 2 - Funds with U.S. Treasury                                      III   -   3
 Note 3 - Investments                                                   III   -   3
 Note 4 - Accounts Receivable, Net                                      III   -   4
 Note 5 - Reconciliation to the Budget                                  III   -   5




OIG Report No. 22-02-009-04-432                                     i
                                  DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                                  ACRONYMS




CFO            Chief Financial Officer

DCCA           District of Columbia Workmen’s Compensation Act Special Fund

DLHWC          Division of Longshore and Harbor Workers’ Compensation

DOL            Department of Labor

ESA            Employment Standards Administration

FASAB          Federal Accounting Standards Advisory Board

FMFIA          Federal Managers' Financial Integrity Act

FUND           District of Columbia Workmen’s Compensation Act Special Fund

FY             Fiscal Year

JFMIP          Joint Financial Management Improvement Project

OCFO           Office of the Chief Financial Officer

OMB            Office of Management and Budget

OWCP           Office of Workers' Compensation Programs




OIG Report No. 22-02-009-04-432                                               ii
                          U. S. DEPARTMENT OF LABOR

               EMPLOYMENT STANDARDS ADMINISTRATION




                                   SECTION I

                MANAGEMENT DISCUSSION
                                  AND ANALYSIS




                                     Fiscal Year 2001
                                   Financial Statements
OIG Report No. 22-02-009-04-432
                                    DICTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2001


MISSION AND ORGANIZATIONAL STRUCTURE

The Longshore and Harbor Workers’ program mission is to effectively administer a program of compensation and
medical benefits to covered workers who are injured on the job or suffer from occupational disease.

The reporting entity is the District of Columbia Workmen’s Compensation Act Special Fund (Fund). Organizationally
the Fund is administered by the Employment Standards Administration (ESA), an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation (DLHWC) has direct
responsibility for administration of the Fund. The Fund supports the program mission by providing compensation, and in
certain cases, medical care payments to District of Columbia employees for work related injuries or death. Effective July
26, 1982, the District of Columbia became responsible for administration and operation of a separate special fund to cover
post July 26, 1982, injury cases.

Administrative services for operating the Fund are provided by the DLHWC through direct Federal Appropriations.
Appropriated funding for administrative services is not reflected in the accompanying financial statements.

Additionally, the District of Columbia Workmen’s Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

FINANCIAL HIGHLIGHTS

The majority of revenue of the Fund $12,169,654 is generated through annual recurring assessments paid by self-insured
employers and insurance carriers. This compares with revenue of $11,709,229 for FY 2000. In addition, investment
income for the Fund was $156,959 for FY 2001 compared to $188,957 for FY 2000. The average interest rate earned
during FY 2001 was 4.21 percent compared to 5.43 percent for FY 2000.

The Fund’s costs remained relatively stable compared to FY 2000; $11,227,356 for FY 2001 compared to $11,520,090 for
FY 2000.

PERFORMANCE GOALS AND RESULTS

The DCCA performance is included in the consolidated performance measures for the Employment Standards
Administration (ESA). ESA supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal
broadly promotes the economic security of workers and families. In particular, the DLHWC program supports Outcome
Goal 2.2 – To Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker benefits are
protected and that employers administer benefit programs in an appropriate way.

For a further discussion of performance goals see the Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements September 30, 2001 and 2000 discussion of performance in Section I Management Discussion and
Analysis.




                                                               I-1
OIG Report No. 22-02-009-04-432
                                    DICTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2001


LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations of the financial statements are a required part of the accompanying overview.

         -   The financial statements have been prepared to report the financial position and results of operations of the
              entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with the
             formats prescribed by OMB, the statements are different from the financial reports used to monitor and
             control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of a sovereign entity, that
             liabilities cannot be liquidated without the enactment of an appropriation, and that the payment of all
             liabilities other than for contracts can be abrogated by the sovereign entity.




                                                           I-2
OIG Report No. 22-02-009-04-432
                          U. S. DEPARTMENT OF LABOR

               EMPLOYMENT STANDARDS ADMINISTRATION




                                     SECTION II

                   FINANCIAL STATEMENTS




                                  Fiscal Years 2001 and 2000
                                     Financial Statements
OIG Report No. 22-02-009-04-432
                                      DISTRICT OF COLUMBIA WORKMEN’S
                                       COMPENSATION ACT SPECIAL FUND

                                                BALANCE SHEETS
                                         As Of September 30, 2001 and 2000




                                                                                 2001            2000

ASSETS

  Intragovernmental assets
    Funds with U.S. Treasury (Note 2)                                   $         32,098   $      61,806
    Investments (Note 3)                                                       5,433,108       4,421,251
  Total intragovernmental assets                                               5,465,206       4,483,057

  Accounts receivable, net (Note 4)                                              197,268           3,026

Total Assets                                                            $      5,662,474   $ 4,486,083


LIABILITIES AND NET POSITION

Liabilities
  Accrued benefits payable                                               $       120,582   $      92,197
  Deferred revenue                                                             2,992,001       3,139,564
  Assessment overpayments by carriers                                            288,595          92,283

Total liabilities                                                              3,401,178       3,324,044

Net position
 Cumulative results of operations                                              2,261,296       1,162,039

Total Liabilities and Net Position                                           $ 5,662,474   $ 4,486,083




The accompanying notes are an integral part of these statements.

                                                         II - 1
OIG Report No. 22-02-009-04-432
                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                         STATEMENTS OF NET COST
                                 For The Years Ended September 30, 2001 and 2000




                                                                            2001           2000

SPECIAL FUND NET COST OF OPERATIONS

With the public
 Second injury compensation, Section 8(f)                             $   10,317,989   $   10,595,427
 Wage increase compensation, Section 10(h)                                   709,425         732,156
 Compensation payment for self-insurer in default, Section 18(b)             199,942          192,507

Net cost of operations                                                $   11,227,356   $ 11,520,090




The accompanying notes are an integral part of these statements.
                                                          II - 2
OIG Report No. 22-02-009-04-432
                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                STATEMENTS OF CHANGES IN NET POSITION
                                 For The Years Ended September 30, 2001 and 2000




                                                                             2001             2000
CHANGE IN NET POSITION

Net cost of operations                                                 $ (11,227,356)   $ (11,520,090)

Net financing sources
 Non-exchange revenue
 Assessments                                                               12,169,654       11,709,229
 Interest                                                                     156,959          188,957

Total net financing sources                                                12,326,613       11,898,186

  Net Results of Operations                                                 1,099,257         378,096

Net position, beginning of period                                           1,162,039         783,943

Net position, end of period                                            $    2,261,296   $    1,162,039




The accompanying notes are an integral part of these statements.

                                                         II - 3

OIG Report No. 22-02-009-04-432
                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                 STATEMENTS OF BUDGETARY RESOURCES
                                 For The Years Ended September 30, 2001 and 2000


                                                                            2001             2000


BUDGETARY RESOURCES (Note 5)

  Budgetary authority                                                   $ 12,206,369    $ 12,491,288
  Unobligated balances, beginning                                          4,341,221       3,351,537

Total budgetary resources                                               $ 16,547,590    $ 15,842,825


STATUS OF BUDGETARY RESOURCES

  Obligations incurred (Note 5)                                         $ 11,224,268    $ 11,501,604
  Unobligated balances available                                              57,195          98,387
  Unobligated balances not available                                       5,266,127       4,242,834

Total status of budgetary resources                                     $ 16,547,590    $ 15,842,825


OUTLAYS (Note 5)

  Obligations incurred                                                  $ 11,224,268    $ 11,501,604
  Obligated balance, net, beginning                                           92,198          30,788
  Less obligated balance, net, ending                                       (120,582)        (92,198)

Total outlays                                                           $ 11,195,884    $ 11,440,194




The accompanying notes are an integral part of these statements.

                                                         II - 4
OIG Report No. 22-02-009-04-432
                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                         STATEMENTS OF FINANCING
                                 For The Years Ended September 30, 2001 and 2000


                                                                            2001           2000


OBLIGATIONS AND NON-BUDGETARY RESOURCES

  Obligations incurred                                                 $   11,224,268   $ 11,501,604

Total obligations as adjusted and non-budgetary resources                  11,224,268     11,501,604


COSTS OF OPERATIONS NOT CONSUMING RESOURCES

  Benefit overpayments                                                         3,088         18,486

Total costs of operations not consuming resources                              3,088         18,486

Net cost of operations                                                 $   11,227,356   $ 11,520,090




The accompanying notes are an integral part of these statements.

                                                         II - 5
OIG Report No. 22-02-009-04-432
                          U. S. DEPARTMENT OF LABOR

               EMPLOYMENT STANDARDS ADMINISTRATION




                                    SECTION III

                              NOTES TO THE
                   FINANCIAL STATEMENTS




                                  Fiscal Years 2001 and 2000
                                     Financial Statements
OIG Report No. 22-02-009-04-432
                                       DISTRICT OF COLUMBIA WORKMEN’S
                                        COMPENSATION ACT SPECIAL FUND

                                     NOTES TO THE FINANCIAL STATEMENTS
                                    For The Years Ended September 30, 2001 and 2000


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial statements are
set forth below.

A.        Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary resources and
financing activities of the District of Columbia Workmen’s Compensation Act Special Fund (Fund). The Fund is administered by
the Employment Standards Administration (ESA) which is an agency within the United States Department of Labor. Within ESA,
the Division of Longshore and Harbor Workers' Compensation has direct responsibility for administration of the Fund. The Fund
offers compensation, and in certain cases, medical care payments to District of Columbia employees for work related injuries or
death. Effective July 26, 1982, the District of Columbia Workmen’s Compensation Act was amended whereby the Mayor of the
District of Columbia became responsible for administration and operation of a separate special fund to cover post July 26, 1982,
injury cases.

Additionally, the District of Columbia Workmen’s Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is paid by
Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated funding for 10(h) is
not reflected in the accompanying financial statements. Also, these financial statements do not include the Special Fund
administered by the Mayor of the District of Columbia for injury cases occurring after July 26, 1982.

B.        Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing and activities of the District of Columbia Workmen’s Compensation Act Special Fund (Fund), in
accordance with accounting principles generally accepted in the United States of America and the form and content
requirements of OMB Bulletin 97-01. These financial statements have been prepared from the books and records of the
Fund. These financial statements are not intended to present, and do not present, the full cost of the District of Columbia
Workmen’s Compensation (DCCA) program administered under the Longshore and Harbor Workers’ Compensation Act
Program (Longshore Program). In addition to the Fund costs presented in these statements, the full cost of the DCCA
portion of the Longshore Program would include certain direct costs of ESA in the form of salaries and expenses for
administration of the Longshore Program and allocated costs of ESA and other DOL agencies incurred in support of the
Longshore Program. The full cost of the DCCA portion of the Longshore Program is included in the Consolidated
Financial Statements of the U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary transactions.
Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a liability is incurred.
Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use of federal funds. These financial
statements are different from the financial reports, also prepared for the Fund pursuant to OMB directives, used to monitor the
Fund’s use of budgetary resources.

C.        Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the U.S.
Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance authorized purchase
commitments.

                                                              III - 1
OIG Report No. 22-02-009-04-432
                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For The Years Ended September 30, 2001 and 2000


D.       Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims or
otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included as
benefit overpayments receivable are Fund benefit overpayments made to individuals who were determined ineligible to
receive benefits.

F.       Accounts Payable

Accounts payable represent the amount of monies or other resources that are likely to be paid within the next twelve
months by the Fund as the result of a transaction or event that has already occurred.

G.       Assessment Overpayment by Carriers

Assessment overpayments are current liabilities and are to be refunded upon carrier request or applied to reduce future
carrier assessments.

H.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been deferred.

I.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive
donations from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the
public and interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers. The Fund also receives interest on Fund investments and on Federal funds in the possession of non-
Federal entities.




                                                           III - 2




OIG Report No. 22-02-009-04-432
                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For The Years Ended September 30, 2001 and 2000


NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with U.S. Treasury at September 30, 2001 and 2000 consisted of the following:

                                                                          Entity Assets – September 30, 2001

                                                      Obligated                      Unobligated
                                                                         Available                 Restricted        Total
Trust funds                                           $      -           $ 32,098                  $ -            $ 32,098


                                                                          Entity Assets – September 30, 2000

                                                      Obligated                      Unobligated
                                                                         Available                 Restricted        Total
Trust funds                                           $      -           $ 61,806                  $ -            $ 61,806

There are no funds being held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation
Act in the Funds with the U.S. Treasury balance at September 30, 2001 or at September 30, 2000. Section 32 funds relate
to the default of self-insured employers and are available for payment of compensation and medical benefits to covered
employees of the defaulted companies.


NOTE 3 - INVESTMENTS

Investments at September 30, 2001 and 2000 consisted of the following:

                                                                         September 30, 2001
                                                      Face                                 Net                   Market
                                                     Value               Discount         Value                   Value

Intragovernmental securities
  Marketable                                     $ 5,469,000        $ (35,892)            $ 5,433,108           $ 5,433,108


                                                                         September 30, 2000
                                                      Face                                 Net                   Market
                                                     Value               Discount         Value                   Value

Intragovernmental securities
  Marketable                                     $ 4,470,000        $ (48,749)            $ 4,421,251           $ 4,421,251


There are no investments being held as security by authority of Section 32 of the Longshore and Harbor Workers'
Compensation Act as of September 30, 2001 or September 30, 2000. Section 32 investments relate to the default of self-
insured employers and are restricted. These investments are available for payment of compensation and medical benefits
to covered employees of the defaulted companies. Investments at September 30, 2001 and 2000 consist of
                                                        III - 3
OIG Report No. 22-02-009-04-432
                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For The Years Ended September 30, 2001 and 2000


NOTE 3 – INVESTMENTS - Continued

short-term U.S. Treasury Bills and are stated at amortized cost which approximates market. Investments at September 30,
2001, bear interest rates varying from 2.26% to 3.44% compared to rates varying from 5.78% to 6.08% for 2000. Interest
rates on securities bought and sold during fiscal year 2001 ranged from 1.74% to 6.23% compared to 4.46% to 6.24% for
fiscal year 2000.


NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2001 and 2000 consisted of the following:

                                                                                             2001                2000
Entity assets
  Benefit overpayments                                                             $            -            $    3,088
  Assessments receivable                                                                 207,750                  9,073
  Less: allowance for doubtful accounts                                                   (10,482)               (9,135)

      Total accounts receivable, net                                                $    197,268             $    3,026

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts receivable
from overpayments to beneficiaries arise primarily from amended compensation orders and corrections of payment
computations. These receivables are being primarily recovered by partial and total withholding of benefit payments.

Changes in the allowance for doubtful accounts during 2001 and 2000 consisted of the following:

                                                               September 30, 2001
                                           Allowance                       Revenue                       Allowance
                                              9-30-00    Writeoffs     Adjustment            Bad Debt       9-30-01
Entity assets
  Benefit overpayments                    $     (62)      $      -    $                  $             $     (62)
  Assessment receivable                      (9,073)       56,252             (57,599)               -   (10,420)
                                           $ (9,135)     $      -      $      (57,599)   $           - $ (10,482)


                                                              September 30, 2000
                                           Allowance                      Revenue                        Allowance
                                              9-30-99    Writeoffs     Adjustment            Bad Debt       9-30-00
Entity assets
  Benefit overpayments                 $    (431)        $       -      $          369 $             -   $    (62)
  Assessment receivable                  (52,000)           54,917             (11,990)              -     (9,073)
                                       $ (52,431)         $ 54,917        $    (11,621) $            -   $ (9,135)




                                                        III - 4

OIG Report No. 22-02-009-04-432
                                  DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For The Years Ended September 30, 2001 and 2000


NOTE 5 - RECONCILIATION TO THE BUDGET

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the years ended September 30, 2001
and 2000 are shown below:

                                                                               September 30, 2001
                                                                 Budgetary     Obligations
(Dollars in Millions)                                            Resources       Incurred         Outlays

Statement of Budgetary Resources                                 $     17     $          11         $    11

Budget of the United States Government                           $     17      $         11         $    11


                                                                                  September 30, 2000
                                                                 Budgetary        Obligations
(Dollars in Millions)                                            Resources          Incurred         Outlays

Statement of Budgetary Resources                                 $     16     $          11         $    11

Budget of the United States Government                           $     16      $         11         $    11




                                                        III -5
OIG Report No. 22-02-009-04-432
